<html>
<title> - MILITARY CONSTRUCTION, VETERANS AFFAIRS, AND RELATED AGENCIES APPROPRIATIONS FOR 2015</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
     MILITARY CONSTRUCTION, VETERANS AFFAIRS, AND RELATED AGENCIES 
                        APPROPRIATIONS FOR 2015

                              ----------                              

                                         Wednesday, March 12, 2014.

              INSTALLATIONS, ENVIRONMENT, ENERGY, AND BRAC

                               WITNESSES

HON. JOHN CONGER, ACTING DEPUTY UNDER SECRETARY OF DEFENSE FOR 
    INSTALLATIONS AND ENVIRONMENT
HON. KATHERINE HAMMACK, ASSISTANT SECRETARY OF THE ARMY FOR 
    INSTALLATIONS, ENERGY, AND ENVIRONMENT
HON. DENNIS V. McGINN, ASSISTANT SECRETARY OF THE NAVY FOR ENERGY, 
    INSTALLATIONS, AND ENVIRONMENT
HON. KATHLEEN I. FERGUSON, ACTING PRINCIPAL DEPUTY ASSISTANT SECRETARY, 
    PERFORMING DUTIES AS ASSISTANT SECRETARY OF THE AIR FORCE FOR 
    INSTALLATIONS, ENVIRONMENT, AND LOGISTICS

                  Chairman Culberson Opening Statement

    Mr. Culberson. The committee will come to order.
    I am pleased to welcome everyone this afternoon to our 
hearing on Installations, Environment, Energy, and BRAC for 
fiscal year 2015.
    We have had a series of votes, and I apologize for coming 
in a moment late, but I just got hung up. About the only time 
you ever get to do your business is when you see each other on 
the House floor.
    And I am delighted to have each one of our witnesses with 
us today. We have a lot of questions to address concerning 
fiscal year 2015's budget request, specifically the impact of 
the proposed $3.2 billion reduction from fiscal year 2014 
enacted levels, the impact of sequestration, and how force 
structure changes will affect the military construction budget 
in 2015 and beyond.
    But before I introduce our witnesses, I would like to turn 
to my good friend, the ranking member, Mr. Bishop from the 
great State of Georgia, to make any opening remarks he would 
like to make.

                      Mr. Bishop Opening Statement

    Mr. Bishop. Thank you, Mr. Chairman.
    I am glad that today we are going to have the opportunity 
to talk about the President's 2015 budget request, and we have 
the civilian leadership that can explain the priorities for 
military construction in each of the services. I look forward 
to hearing from our witnesses today on how the current budget 
climate is affecting their military construction projects, not 
only this year but in requests for the next few years.
    Mr. Chairman, as I look at these requests, I have to say 
that I haven't seen requests this low in a long time.
    And on another subject, equally important, is the request 
for a new BRAC round. In 2005, Congress authorized a BRAC that 
ended up being far more extensive and expansive than we were 
led to believe. I can understand in 2004 that it was known that 
there services had a 24 percent excess in capacity, but during 
the 2005 BRAC round Defense only made reductions of 3.4 
percent.
    I realize that it was, as many of you have stated in our 
private meetings that the 2005 BRAC was more of a reshaping-
type and restructuring-type BRAC, but a lot of money was spent 
to move things around and, most importantly, moving people 
around. So I have some concerns regarding another BRAC round.
    I realize that these are very difficult issues for all of 
the Members of Congress, and so I am glad for today's hearing 
so that we can discuss them openly. And I look forward to a 
very rigorous discussion.
    Thank you, Mr. Chairman, and I yield back. And thank you 
for the opportunity to share my concerns.
    Mr. Culberson. Thank you, Sanford.
    Mr. Culberson. We will move right into the introduction of 
our witnesses. And we are delighted to have with us the 
Honorable John Conger, who is Deputy Under Secretary of Defense 
for Installations and Environment; Katherine Hammack, Assistant 
Secretary of the Army for Installations, Energy, and 
Environment; the Honorable Dennis McGinn, Assistant Secretary 
of the Navy for Energy, Installations, and Environment; and 
delighted also to have with us Kathleen Ferguson, who is the 
Acting Principal Deputy Assistant Secretary, performing duties 
as Assistant Secretary of the Air Force for Installations, 
Environment, and Logistics.
    We deeply appreciate your service to the country and for 
taking the time to be here.
    And, if I could, without objection, I would like to enter 
your statements in their entirety into the record and ask you, 
if you could, to summarize your remarks to the committee. And 
we look forward to your testimony.
    And I am delighted to begin with you, Mr. Conger. Thank you 
very much.

                      Mr. Conger Opening Statement

    Mr. Conger. Great. Thank you, Chairman Culberson, Ranking 
Member Bishop, distinguished members of the subcommittee. I 
appreciate the opportunity to appear before you to discuss the 
Department's fiscal year 2015 budget request for installations 
and environment.
    I would like to touch on three items from my opening 
statement: one, the top-level budget numbers; two, BRAC; and, 
three, European infrastructure consolidation. I will be brief 
because I want to get to your questions.
    The testimony that I have submitted for the record 
describes the $6.6 billion that we are requesting for military 
construction, the $8 billion we are requesting for sustaining 
and restoring our facilities, and the $3\1/2\ billion we are 
seeking for environmental compliance and cleanup.
    It is worth noting that the Opportunity, Growth, and 
Security Initiative, which represents funding above the budget 
caps, includes $26 billion for DoD, $2.9 billion of which is 
for military construction and $4.2 billion of which is for 
facility sustainment and restoration. Because infrastructure 
generally has a long, useful life and its associated 
degradation is not as immediate, the DoD components are taking 
more risk in the military construction program in order to 
decrease risk in other operational and training budgets.
    In addition, reducing military construction reduces 
investment risk, as we contemplate the uncertain allocation of 
force structure cuts and the possibility of a new round of 
BRAC. The military construction request alone, as was alluded 
to earlier, is a 40-percent reduction from what we requested 
last year.
    The budget challenges facing the Department are deep, and 
they extend for many years. We continue to believe that an 
important way to ease this pressure is with base closure, 
allowing us to avoid paying upkeep for unneeded infrastructure 
and making those funds available for readiness and 
modernization of our forces.
    I would like to quote Speaker Boehner. He was speaking the 
other day to the Dayton Daily News, where he said, and I quote, 
``There should be another round of BRAC. We have bases that are 
unnecessary. They need to go.'' I appreciate the Speaker's 
support for our request for a new BRAC round, but, that said, I 
know that the high cost of 2005 has left a bad taste in many 
Members' mouths.
    We have long talked about the emphasis in 2005 on 
transformation rather than efficiency, but that answer didn't 
satisfy Congress' concern regarding the $35-billion cost, and 
it certainly didn't explain why we weren't going to end up with 
more of the same if another round were authorized.
    The key reason that 2005 cost so much was that we were 
willing to accept recommendations that did not save money, that 
did not pay back. So, in that context, I asked my staff to 
review each of the recommendations from BRAC 2005, and what we 
found was that we actually ended up conducting two parallel 
BRAC rounds.
    The first one was about transformation. The recommendations 
were expensive, and they didn't have payback.But there are some 
actions you can only execute when you have BRAC authority. Looking at 
the nearly half of last round's recommendations that either didn't pay 
back at all or paid back in more than 7 years, we found that this, 
quote/unquote, ``transformation BRAC'' cost $29 billion out of the $35 
billion and only resulted in a billion dollars in annual savings.
    The other half of the recommendations, however, was focused 
on saving money, focused on efficiency. These recommendations 
had payback in less than 7 years. They ended up costing a total 
of $6 billion and yielding recurring savings of $3 billion a 
year. This, quote/unquote, ``efficiency BRAC'' proves that when 
we are trying to save money, we do. That is the kind of round 
we are seeking to conduct now.
    One last topic I am going to touch on is the European 
infrastructure consolidation effort. Many Members have said 
that we should close bases overseas before we conduct a BRAC 
round, so we have embarked on a BRAC-like process in Europe. 
However, in this effort, we are not looking at bringing forces 
back to the United States. We hold forces constant, and we are 
looking for efficiencies. So it will not take pressure away 
from the need for a new BRAC round.
    The analysis has taken longer than expected, and we are 
nearing completion. We anticipate results this spring. We have 
affirmed several recommendations already and have offered 
classified briefings to committee staff and Members. In fact, 
we are scheduled to brief this subcommittee's staff tomorrow.
    While most of the recommendations will take years to 
execute and will require lengthy consultation, there are some 
near-term activities. And there is one that I want to highlight 
and ask for your support on, and that is the consolidation of 
intelligence activities at RAF Croughton.
    There is a $92-million construction request in this budget, 
part of a 3-year effort that we expect to cost on the order of 
$300 million, that will yield a billion dollars in savings over 
the next 10 years. That is the kind of thing we are trying to 
accomplish.
    Thanks again for the opportunity to testify, and I look 
forward to your questions.
    Mr. Culberson. Thank you, Mr. Conger.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T8212A.001
    
    [GRAPHIC] [TIFF OMITTED] T8212A.002
    
    [GRAPHIC] [TIFF OMITTED] T8212A.003
    
    [GRAPHIC] [TIFF OMITTED] T8212A.004
    
    [GRAPHIC] [TIFF OMITTED] T8212A.005
    
    [GRAPHIC] [TIFF OMITTED] T8212A.006
    
    [GRAPHIC] [TIFF OMITTED] T8212A.007
    
    [GRAPHIC] [TIFF OMITTED] T8212A.008
    
    [GRAPHIC] [TIFF OMITTED] T8212A.009
    
    [GRAPHIC] [TIFF OMITTED] T8212A.010
    
    [GRAPHIC] [TIFF OMITTED] T8212A.011
    
    [GRAPHIC] [TIFF OMITTED] T8212A.012
    
    [GRAPHIC] [TIFF OMITTED] T8212A.013
    
    [GRAPHIC] [TIFF OMITTED] T8212A.014
    
    [GRAPHIC] [TIFF OMITTED] T8212A.015
    
    [GRAPHIC] [TIFF OMITTED] T8212A.016
    
    [GRAPHIC] [TIFF OMITTED] T8212A.017
    
    [GRAPHIC] [TIFF OMITTED] T8212A.018
    
    [GRAPHIC] [TIFF OMITTED] T8212A.019
    
    [GRAPHIC] [TIFF OMITTED] T8212A.020
    
    [GRAPHIC] [TIFF OMITTED] T8212A.021
    
    [GRAPHIC] [TIFF OMITTED] T8212A.022
    
    [GRAPHIC] [TIFF OMITTED] T8212A.023
    
    [GRAPHIC] [TIFF OMITTED] T8212A.024
    
    Mr. Culberson. Madam Secretary, we are glad to have you 
with us today, and we recognize you for your testimony.

                     Ms. Hammack Opening Statement

    Ms. Hammack. Thank you, Chairman Culberson and Ranking 
Member Bishop, other members of the committee. I am glad to be 
here today to talk on behalf of soldiers, families, and 
civilians in the United States Army. And I thank you for the 
opportunity to discuss the fiscal year 2015 military 
construction budget proposal.
    For fiscal year 2015, the Army is asking for $1.3 billion 
in military construction, Army family housing, and the Army's 
share of the DoD base closure account. This represents a 39-
percent reduction from fiscal year 2014.
    In addition to military construction, the Army is asking 
for $13 billion for installation, energy, environmental 
programs, facility sustainment, restoration, and modernization, 
and base operations support.
    Due to the fiscal reduction required by current law and the 
end of combat operations in Afghanistan, the Army is shrinking 
our Active component end strength to 490,000 by the end of 
fiscal year 2015. The 2014 Quadrennial Defense Review calls for 
the Army end strength to decline further, to between 440,000 
and 450,000.
    As end-strength force structure declines, we must assess 
and right-size supporting infrastructure to ensure that 
training and readiness needs are met. This requires us to 
achieve a difficult balance between the cost of maintaining 
infrastructure and force readiness.
    Last year, the committee asked when a capacity analysis was 
last conducted. So we are conducting a facility capacity 
analysis to determine the magnitude of excess capacity in the 
United States from announced reductions. The analysis shows to 
date that, inside the U.S., excess Army capacity ranges between 
12 and 28 percent, depending upon the facility category group, 
with an average of 18-percent excess capacity in the Army. 
Additional end-strength reductions below 490,000 will increase 
excess capacity.
    In Europe, as part of the European infrastructure 
consolidation review that Mr. Conger referenced, we are 
addressing excess capacity. With a target completion date in 
spring of 2014, the current analysis of Army facilities in 
Europe reflects a 10- to 15-percent excess capacity in Europe. 
We are on track to shrink overseas supporting infrastructure, 
overhead, and operating budgets.
    BRAC is a proven means to address excess capacity in the 
United States. Prior BRAC rounds are producing $2 billion in 
cumulative net savings to the Army every year. The Government 
Accounting Office audited BRAC 2005 and found that it is saving 
DoD as a whole a net $3.8 billion a year. BRAC savings from DoD 
for all prior rounds cumulatively amount to $12 billion a year.
    As John stated, we have achieved the expected savings in 
the 2005 round of BRAC and have a clear business case for our 
2014 round. There is a clear path forward for Congress to agree 
to a new round of BRAC.
    As Mr. Conger stated, the BRAC 2005 round was comprised of 
two parallel BRAC rounds: a transformation BRAC and an 
efficiency BRAC. The efficiency BRAC round was a component that 
produced savings. The next round of BRAC will only be an 
efficiency BRAC and will likewise produce savings, real 
savings, for the Army.
    The Army and Congress have historically concluded that 
using BRAC authorities is more transparent and economically 
advantageous to local communities than other non-BRAC 
authorities in addressing excess capacity. We fully support the 
administration's request to authorize a single round of BRAC in 
2017 and look forward to working with Congress to determine the 
criteria for a successful BRAC round.
    Thank you for the opportunity to appear before you today, 
and I look forward to your questions on our recommended 2015 
budget.
    Mr. Culberson. Thank you, Madam Secretary.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T8212A.025
    
    [GRAPHIC] [TIFF OMITTED] T8212A.026
    
    [GRAPHIC] [TIFF OMITTED] T8212A.027
    
    [GRAPHIC] [TIFF OMITTED] T8212A.028
    
    [GRAPHIC] [TIFF OMITTED] T8212A.029
    
    [GRAPHIC] [TIFF OMITTED] T8212A.030
    
    [GRAPHIC] [TIFF OMITTED] T8212A.031
    
    [GRAPHIC] [TIFF OMITTED] T8212A.032
    
    [GRAPHIC] [TIFF OMITTED] T8212A.033
    
    [GRAPHIC] [TIFF OMITTED] T8212A.034
    
    [GRAPHIC] [TIFF OMITTED] T8212A.035
    
    [GRAPHIC] [TIFF OMITTED] T8212A.036
    
    [GRAPHIC] [TIFF OMITTED] T8212A.037
    
    [GRAPHIC] [TIFF OMITTED] T8212A.038
    
    [GRAPHIC] [TIFF OMITTED] T8212A.039
    
    [GRAPHIC] [TIFF OMITTED] T8212A.040
    
    [GRAPHIC] [TIFF OMITTED] T8212A.041
    
    [GRAPHIC] [TIFF OMITTED] T8212A.042
    
    Mr. Culberson. We are pleased to recognize Secretary 
McGinn. Thank you for your service to the country and for being 
here today, sir.

                      Mr. McGinn Opening Statement

    Mr. McGinn. Thank you, Mr. Chairman, Mr. Bishop, members of 
the subcommittee. I am pleased to appear before you today to 
provide an overview of the Department of the Navy's investment 
in its shore infrastructure.
    But before I begin, I would just like to thank the 
committee for the absolutely wonderful, fast work on 
reprogramming funds to get our Naval Sea Systems Command team 
back into their headquarters at the Washington Navy Yard. As a 
result of your rapid action, a construction contract was let in 
January, and we anticipate having that fine team back in place 
in April of next year.
    From our Nation's infancy, the United States Navy and 
Marine Corps team has operated far from our shores to protect 
vital security and economic interests. Forward presence is no 
less important today than it was in 1902 when Congress 
authorized President Thomas Jefferson to, quote, ``employ such 
of the armed vessels of the United States as may be judged 
requisite for protecting effectually the commerce and seamen 
thereof on the Atlantic Ocean, the Mediterranean, and adjoining 
seas,'' unquote.
    While the nature of today's threats has grown and is more 
lethal and insidious than 200 years ago, we need to compensate 
for that. Our Navy and Marine Corps team must be manned, 
trained, and equipped to deter and respond to belligerent 
actors wherever, whenever, and however they strike.
    Yet the fiscal imperative to reduce our Nation's debt and 
control the deficit introduces additional complexity and 
challenges as our department strives to strike the right 
balance between resources, risks, and our strategy.
    Our President's budget request for fiscal year 2015, while 
supporting the 2014 Quadrennial Defense Review, comes at a 
price to the shore establishment. Fortunately, investments made 
in prior years will enable the Department of the Navy to 
achieve forward presence without undermining the shore 
establishment in the near term.
    I look forward to working with you to sustain the 
warfighting readiness and quality of life for the most 
formidable expeditionary fighting force in the world.
    Thank you for the opportunity to testify before you today, 
and I welcome your questions.
    Mr. Culberson. Thank you, Secretary McGinn. I am always 
pleased to have Thomas Jefferson's wisdom as part of the record 
here in Congress. Thank you, sir.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T8212A.043
    
    [GRAPHIC] [TIFF OMITTED] T8212A.044
    
    [GRAPHIC] [TIFF OMITTED] T8212A.045
    
    [GRAPHIC] [TIFF OMITTED] T8212A.046
    
    [GRAPHIC] [TIFF OMITTED] T8212A.047
    
    [GRAPHIC] [TIFF OMITTED] T8212A.048
    
    [GRAPHIC] [TIFF OMITTED] T8212A.049
    
    [GRAPHIC] [TIFF OMITTED] T8212A.050
    
    [GRAPHIC] [TIFF OMITTED] T8212A.051
    
    [GRAPHIC] [TIFF OMITTED] T8212A.052
    
    [GRAPHIC] [TIFF OMITTED] T8212A.053
    
    [GRAPHIC] [TIFF OMITTED] T8212A.054
    
    [GRAPHIC] [TIFF OMITTED] T8212A.055
    
                     Ms. Ferguson Opening Statement

    Mr. Culberson. Secretary Ferguson, we are glad to have you, 
and thank you for your service. And we look forward to your 
testimony.
    Ms. Ferguson. Thank you, Chairman Culberson, Ranking Member 
Bishop, and distinguished members of the subcommittee. I 
appreciate the opportunity to appear before you today to 
discuss the Air Force's military construction and military 
family housing fiscal year 2015 budget request.
    On behalf of Secretary James and General Welsh, I would 
like to thank this subcommittee for its unwavering support of 
the Air Force.
    I know Members are eager to ask questions of this panel, so 
I will keep my comments brief. To that end, details regarding 
our fiscal year 2015 budget request are included in my written 
statement. I would like, however, to highlight two topics of 
interest: the challenges the Air Force faces in the current 
fiscal environment and base realignment and closure.
    The current fiscal environment required the Air Force to 
make some very tough choices. In order to best support national 
defense requirements and comply with the Defense Department's 
fiscal guidance and challenges, the Air Force chose capability 
over capacity. Moving forward, the Air Force seeks to maintain 
a force ready to meet the full range of military operations 
while building an Air Force capable ofexecuting its core 
missions.
    The budgetary cuts generated by sequestration are difficult 
to absorb. In fiscal year 2013, the Air Force stood down 31 
active flying squadrons for more than 3 months, initiated 
civilian furloughs, cut maintenance and facilities, and delayed 
major maintenance actions, to include depot aircraft overhauls.
    The Air Force believes that, funded at the fiscal year 2015 
PB top-line level, it can continue a gradual path of recovery 
to full-spectrum combat readiness and support its military 
construction and housing programs.
    My second topic, as has been a number of my other 
counterparts here, relates to base realignment and closure. The 
bottom line is we need another round of BRAC and fully support 
the Department's request for a future BRAC round.
    While we have current excess infrastructure capacity 
analysis from which to draw, the Department's capacity analysis 
from 2004 estimated the Air Force had 24-percent excess 
infrastructure capacity. BRAC 2005 directed the Air Force to 
close only 8 minor installations and directed 63 realignments, 
affecting 122 installations. Since then, the Air Force has 
reduced our force structure by more than 500 aircraft and 
reduced our Active Duty military end strength by nearly 8 
percent.
    Additionally, the Air Force has outlined plans in its 
fiscal year 2015 PB submission to reduce force structure and 
personnel even further. Even though we have not done an updated 
capacity analysis, we intuitively know we still have excess 
capacity.
    One way we have, however, reduced our footprint is through 
demolition of aging facilities and infrastructure. Since 2006, 
we have demolished 44.3 million square feet of aging facilities 
that were excess to our needs, and we estimate the resultant 
savings at greater than $300 million.
    Despite our best efforts and innovative programs, the Air 
Force continues to spend money maintaining excess 
infrastructure that would be better spent recapitalizing and 
sustaining our weapons systems, training to improve readiness, 
and investing in the quality-of-life needs of our Airmen and 
their families. Divestiture of excess property on a grander 
scale is a must.
    In conclusion, the Air Force made hard choices during 
budget formulation. We attempted to strike the delicate balance 
of a ready force today and a modern force tomorrow while 
adjusting to budgetary reductions.
    To help achieve that balance, the Air Force elected to 
accept risk in installation support, military construction, and 
facilities sustainment. We believe this risk is prudent and 
manageable in the short term, but we must continue the dialogue 
on right-sizing our installations' footprint for a smaller, 
more capable force that sets the proper course for addressing 
our most pressing national security requirements.
    Members of the subcommittee, thank you for your strong 
support of the men and women of the United States Air Force, 
Active Guard, Reserve, and civilians. This concludes my opening 
remarks, and I welcome your questions.
    Mr. Culberson. Thank you, Madam Secretary. I appreciate it.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T8212A.056
    
    [GRAPHIC] [TIFF OMITTED] T8212A.057
    
    [GRAPHIC] [TIFF OMITTED] T8212A.058
    
    [GRAPHIC] [TIFF OMITTED] T8212A.059
    
    [GRAPHIC] [TIFF OMITTED] T8212A.060
    
    [GRAPHIC] [TIFF OMITTED] T8212A.061
    
    [GRAPHIC] [TIFF OMITTED] T8212A.062
    
    [GRAPHIC] [TIFF OMITTED] T8212A.063
    
    [GRAPHIC] [TIFF OMITTED] T8212A.064
    
    [GRAPHIC] [TIFF OMITTED] T8212A.065
    
           CAPACITY ANALYSES AND THE FISCAL YEAR 2015 REQUEST

    Mr. Culberson. Mr. McGinn, are you aware, does the Navy 
have any analysis, current numbers that you can rely on in 
terms of what your excess capacity may be?
    Mr. McGinn. We have not done an excess capacity analysis in 
a number of years, but we, too, also support having a BRAC. We 
find that that process is very, very analytical; it relies on 
fact-based decisions and priorities. And we would welcome the 
opportunity to conduct one.
    Mr. Culberson. Sure.
    Also, I think it is important to note for the record the 
United States Marine Corps was the first and the Navy is next 
in being able to adopt generally accepted accounting 
procedures. And I believe the Marine Corps as of today can be 
audited by an outside accounting firm, and the Navy is next, 
right?
    Mr. McGinn. We are working very hard on that, yes, sir.
    Mr. Culberson. Okay, great. I hope the Army and the Air 
Force is going to be right there behind them so you can 
actually do careful, honest analysis.
    But in light of the fact, the Army has got numbers, as you 
said, Madam Secretary, that indicate about an 18-percent 
average excess capacity currently--so in the absence of current 
numbers from the Air Force or the Navy, I share Mr. Bishop's 
deep concern and, frankly, astonishment that you have asked for 
a 33-percent reduction in your construction budget below what 
we enacted last year.
    And you know how strongly this committee supports what you 
do. And we want to make sure that the men and women in uniform 
have everything they need in terms of creature comforts and 
don't ever have to look over their shoulder or worry one bit 
about their health care or their housing or their families. And 
so that is a real, frankly, shocking number, and I don't 
personally expect that that is one that we are likely to go 
with.
    But I would like to hear your explanation, if you could. 
Talk to us about how the Department determined what projects or 
accounts would be reduced. Where did you come up with 33.1 
percent or $3.2 billion reduction? And if, we will just say, 
the committee would ever approve that, what areas would you see 
most at risk?
    Mr. Conger.
    Mr. Conger. So, in order to answer your question, there are 
multiple decisions to the budget. It wasn't a holistic, ``Here 
is what your MILCON number is.'' Each of the services built 
their own budget, and they will be able to speak to how they 
set their own priorities.
    But I think, holistically, one can point to the fact that, 
as we are looking at a constrained top line, the priority has 
to be readiness. And so we had an allocation of resources that 
attempted to ensure that readiness accounts were more fully 
funded. And that meant that we had to decide where to take risk 
as a department.
    Mr. Culberson. Office of Management and Budget (OMB) gave 
you X amount of money, and you just had to work to try to make 
it fit within that? Or how did you do that?
    Mr. Conger. So, the Bipartisan Budget Act that was passed a 
few months ago set budget numbers for 2014 and 2015. The number 
that we sent over adheres to that number.
    Mr. Culberson. Right, that is the overall number. I mean, 
but from your perspective, your piece on the military 
construction portion----
    Mr. Conger. So the overall----
    Mr. Culberson [continuing]. That is not in that overall 
budget plan. That is just the one big number.
    Mr. Conger. Right. And so the Department has to try and 
come up with a plan that meets that number.
    Mr. Culberson. Well, right, right, for your piece of it. 
But, I mean, basically, OMB comes in and says, here is how much 
money we believe you need to get out of this entire----
    Mr. Conger. As a department.
    Mr. Culberson. Yes.
    Mr. Conger. It doesn't bifurcate the MILCON from that.
    Mr. Culberson. No, I understand, but, I mean, the President 
and the White House obviously have other priorities.
    Mr. Conger. So the direction was to build the budget based 
on the Bipartisan Budget Act.
    Mr. Culberson. That is the top-line number.
    Mr. Conger. Yes. And so the Department had that number to 
work with. That said, we had priorities to weigh in meeting 
that budget----
    Mr. Culberson. Yes.
    Mr. Conger [continuing]. And facilities were one of those 
areas where the Department decided to take risk.
    Mr. Culberson. But in the absence of excess capacity 
numbers from either the Navy or the Air Force, you don't even 
know--I mean, tell me, how did you determine what projects or 
accounts are going to be reduced if you don't even know what 
the excess capacity is?
    Mr. Conger. It is less a matter of what is going to be 
reduced and more a matter of what you are going to decide to 
fund within the priorities that you have the available funds 
for.
    Mr. Culberson. And what areas do you see most at risk with 
the numbers that you have given us, the 33-percent reduction in 
military construction accounts, when the Committee has been 
very generous and supportive in the past.
    Mr. Conger. Right.
    Mr. Culberson. And I know that the Committee hasscrubbed--
we have superb staff. We are abundantly blessed to have the----
    Mr. Conger. Indeed.
    Mr. Culberson [continuing]. Majority and minority staff 
work together beautifully. I think you have flushed out every 
little extra dollar you can out of these accounts.
    Where did you come up with these reductions--where does 33 
percent reduction come from? And what areas are most at risk if 
we were to just simply adopt what you have given us?
    Mr. Conger. So I think that the risk that we are 
accepting--and there is no mistaking that we are accepting risk 
in facilities. I think that the first place you have to look is 
the facilities sustainment and restoration and modernization 
accounts, which I know aren't part of this Committee's 
appropriation but are part of the equation as we consider, you 
know, what affects our facilities. It is cheaper to sustain a 
building than it is to repair it, and it is cheaper to repair 
it than it is to replace it.
    And so we have accepted risk. We have a facility model to 
try and say how much money is required to sustain our 
buildings. And we have, as a department and each of the 
services, accepted varying degrees of risk as to what we are 
going to do as far as preventative maintenance, et cetera. 
That, I think, is probably the highest risk, because that leads 
to repair requirements, and both those repair requirements lead 
to requirements for new facilities.
    Mr. Culberson. Yeah.

                          FUNDING LEVEL IMPACT

    Secretary Hammack, could you tell the Committee what you 
told me on our visit, that essentially you have been able to 
function--the level of funding you have today enables you to 
handle about 80 percent of your maintenance and repair needs I 
believe is what you told me, and that if we were to adopt this 
you would be at a level of about 60 percent?
    Ms. Hammack. Yes, sir.
    Mr. Culberson. So, essentially, you are basically just 
treading water and just patching the potholes and the leaks in 
the roof.
    Ms. Hammack. The focus is on life, health, and safety in 
our sustainment accounts. In our MILCON accounts, we are 
focused on fixing the failing; moving out of temporary 
structures that we have been in too long, and they are also at 
a failing level; and restationing what is coming back from 
Afghanistan, some of our (unmanned aerial vehicles).
    And so each of the components--the Guard, Reserve, and the 
Active Duty Army--prioritized on the basis of what were the 
most failing infrastructure requirements.

              CHANGES TO THE FUTURE YEARS DEFENSE PROGRAM

    Mr. Culberson. Well, in the 2015 budget request, 79 
projects were, I noticed, in the fiscal year 2014 FYDP for 
2015, but the budget request also includes 37 new projects that 
were not in the 2014 FYDP and 12 that were programmed in the 
out-years beyond 2015.
    Can you talk to us about the rationale behind those changes 
and those requests? Where did the new ones come from, and how 
come others dropped out?
    Ms. Hammack. Absolutely. Some of the changes came from----
    Mr. Culberson. The Committee would like an answer from each 
one of you all.
    Excuse me, ma'am.
    Ms. Hammack. Okay. Thank you, sir.
    The adds that came into our military program, a lot of 
those came from emerging requirements that were considered to 
be failing and were failing at a more rapid rate than was 
expected. So those were adds that came in.
    Some were accelerations from the Commands as they relooked 
at the restationing. As the Army downsizes to 490,000, we took 
a very hard look at our MILCON program and determined what was 
the most critical.
    As we are considering shrinking even further, to 440 or 
450, some projects dropped out until we know exactly where they 
are going to be so we can avoid building infrastructure that 
might not be needed by a smaller force.
    Mr. Culberson. If we were to adopt this level of funding, 
you would be in a position essentially of just patching the 
potholes and fixing the roof?
    Ms. Hammack. Yes, sir.
    Mr. Culberson. And that is it.
    Ms. Hammack. Yes, sir.
    Mr. Culberson. Not likely. We love you, and we are going to 
help. I bet we find a way to help you beyond that.
    Quickly, if we could, and I want to move to my good friend, 
Mr. Bishop.
    Mr. McGinn. Yes, Mr. Chairman. Our story is similar. We are 
not putting at risk any safety, health, or comfort issues for 
our wonderful men and women in uniform or their families. I 
would characterize it simply as saying, as a result of the 
levels of funding we have had in past years and the support 
from this subcommittee, we have been able to make a lot of 
progress. This year, projecting ahead to 2015, we are not going 
to be going ahead as far and as fast as we have been over the 
past several years, but we are not going to be falling behind 
next year.
    Mr. Culberson. You would be in the same position as the 
Army, just essentially repairing potholes and fixing the roof?
    Mr. McGinn. A little bit better than that. Some new 
construction, some family housing improvements, but just not 
achieving the standards that we want to achieve as quickly as 
we would like to.
    Mr. Culberson. Okay.
    And I thank my good friend, Mr. Bishop, who has been very 
indulgent of me. I didn't mean to take so much time. But Ms. 
Ferguson, then I want to pass to my good friend from Georgia.
    Ms. Ferguson. I will try to be brief here. I just want to 
hit a couple things.
    As the Air Force built the budget, we looked to build the 
most capable Air Force ready for a high-end threat that was 
affordable in 2023. And as we built the budget, we had 
difficult choices as we attempted to strike that delicate 
balance between a ready force today and a modern force 
tomorrow, while also recovering from sequestration.
    Really, what we did was two things. We continue to seek 
efficiencies and cut overhead. We reduced management 
headquarters, consolidated activities to achieve 20-percent 
savings. We supported the military compensation 
recommendations. And to prevent deeper cuts to readiness and 
personnel, we did take risk in military construction, 
facilities sustainment, and installation support.
    We, further, also took capacity down. And I think you are 
all aware, we had to look at divesting the A-10 and the U-2 
fleet to achieve savings to balance that budget.
    Thank you.
    Mr. Culberson. Thank you, ma'am. Thank you for your 
testimony.
    And thank you for your patience, Mr. Bishop.

                      BASE REALIGNMENT AND CLOSURE

    Mr. Bishop. Thank you very much, Mr. Chairman.
    Let me go to Secretary Conger.
    The request for the round of BRAC in your 2015 budget, is 
it budget-driven, or is it drawdown-driven, or is it a 
combination of the two?
    Mr. Conger. It is a combination. The reason you have a BRAC 
round, though, is because you want to save money, and you are 
looking for places to save it. You use BRAC as a way to save 
money when you believe you have excess capacity, and we do.
    Mr. Bishop. So it is basically budget-driven, then?
    Mr. Conger. Well, you don't have a BRAC, in general, if you 
don't expect the need to save money. I mean----
    Mr. Bishop. So all of this reduction in capacity and 
reduction in force is budget-driven as opposed to strategic-
defense-driven?
    Mr. Conger. I think that it is important to clarify that 
the main motivation for a BRAC round is to save money. The 
things you can do in BRAC are not always, as we saw in 2005, 
not always about just saving money. There are transformational 
activities that we did in 2005.
    Right now, the Department is motivated to fit within the 
budget constraints that it has. And the reason that we want a 
BRAC round so desperately today is that we don't want to be 
wasting money on unneeded facilities that, therefore, meansthat 
we have less money to spend on readiness and the warfighter.

                           STRATEGIC DEFENSE

    Mr. Bishop. Basically, our military is our strategic 
defense for domestic and foreign protection. And we don't know 
what the exigencies are going to be, so it is kind of difficult 
to plan without being strategically prepared.
    And making the assumption--I guess all of this is making 
the assumption that because we don't have the resources that we 
have had budget-wise, that our strategic needs are not going to 
be as great as they have been. Would you say that is correct?
    Mr. Conger. Far be it from me to allude to a general 
statement like that. I think, from a facilities perspective, I 
can talk about the excess that we have and the optimization. 
But I am not the appropriate person to be answering questions 
about the overall strategic posture of the Department.
    Mr. Bishop. The excess is a function of what our future 
requirements are? Or is the excess a result of having unneeded 
capacity for what we are now doing?
    Mr. Conger. Yes. And when you have a BRAC round, the first 
thing you do is go to the Joint Staff and say, what is your 20-
year force structure plan? What are you projecting for a force 
structure so that we can use that as an input?
    It is also, by the way, what we did on the European 
infrastructure consolidation effort. We went to the Joint Staff 
first and said, what is the requirement? It is not our job to 
decide whether we need fewer or more people in the Armed 
Forces.

                 PROGRAMMATIC ENVIRONMENTAL ASSESSMENT

    Mr. Bishop. Thank you.
    For Ms. Hammack, I just want to ask you if the Army's 
Programmatic Environmental Assessment (PEA) had an effect on 
the fiscal year 2015 program for the Army.
    Ms. Hammack. Yes, the PEA that we did last year had an 
effect on our program. We had done a very close scrutiny of our 
fiscal year 2014 MILCON program to try and avoid building 
things that we thought could have been affected.
    Right now, we have just started another round of PEA or 
NEPA in order to look at what kind of infrastructure we would 
need if we shrunk to 440 or even lower to 420. So we are taking 
a look at our infrastructure again.
    As you clearly stated in your opening statement, the last 
round of BRAC identified an excess capacity of over 20 percent, 
yet only reduced by about 3\1/2\. So there is clearly excess 
capacity that has been there a while that we have not 
addressed.
    The Army's recent study has confirmed that we have excess 
capacity currently in the Army, that we could do further 
consolidations, we could do further closures because we have 
excess capacity. And we could consolidate into our most 
efficient structures, we could consolidate to increase our 
efficiency of our operations, and we could save money for the 
American taxpayer.
    Mr. Bishop. And so we should be reassured, then, that, 
unlike in 2005, we won't end up with a net savings of very 
little?
    Ms. Hammack. Absolutely, sir. We are not asking for a 
transformational BRAC. We are asking for an efficiency BRAC. In 
2005, we asked for, as Mr. Conger described, two parallel 
BRACs. One was a transformational, one was an efficiency. The 
efficiency portion looked like prior rounds of BRAC. That is 
what we are asking for this time.

                   REBALANCE THE ASIA-PACIFIC REGION

    Mr. Bishop. Okay.
    Secretary Conger, changing gears for a moment, can you give 
us an update on the Department's efforts to rebalance the Asia-
Pacific region in terms of facilities, specifically in Guam and 
Japan? I know that the landfill permit from the Futenma 
Replacement Facility (FRF) was signed this past December, so 
what I would like to know is, are we finally going to see some 
real movement on that project?
    Mr. Conger. So, two things real quick.
    One quick clarification on the BRAC savings. The 2005 round 
is saving $4 billion in recurring savings. So that is not 
nothing. I just wanted to clarify it for the record.
    The second thing is, as far as the shift to Guam, 
therecurrently is ongoing an SEIS process, a supplemental environmental 
impact statement process. The Navy is projected to release the draft--
and maybe I should turn to Secretary McGinn to answer the details of 
this, but we expect that to be coming out early next year.
    Denny, did you want to----
    Mr. McGinn. It should be coming out in about a month or so, 
Mr. Bishop.
    Mr. Bishop. That is the plan?
    Mr. McGinn. The supplemental, yes, the draft. And it will 
provide what our preferred alternatives are for the laydown of 
our U.S. Marines at Guam going forward.
    Mr. Bishop. All right. Because last year I asked your 
predecessor if there was a plan showing what was needed on the 
construction side for the new South Pacific strategy, and there 
was not one then. So you are saying that there is not one now 
but you are working on it?
    Mr. McGinn. We do have a plan that is being reviewed within 
the Department that will be published in about 30 days or so. 
And we will go through that whole process of taking in inputs 
on that and then finally deciding on what the exact laydown is. 
But I will tell you, the plan has come into much sharper focus, 
and I think you will be able to see that when this supplemental 
EIS is published.
    Mr. Bishop. So can you tell us what types of projects we 
will see in the Pacific and how lower budgets will affect 
investments in that area?
    Mr. McGinn. Our focus on Guam is to be able to accommodate 
5,000 Marines and about 1,700 or so family members. We want to 
make sure that the living environment, the quality of life is 
adequate, and it will be. We want to make sure that the ability 
to train those Marines, including live-fire training, is 
evident there, so part of the plan involves live-fire training 
ranges and mobility training ranges.
    We want to make sure that this strategic location, 
operating so far forward in areas of critical interest to the 
United States, has the right kind of infrastructure and base 
laydown that will support those Marines and enable them to go 
forward.
    Mr. Bishop. Is Japan in agreement with that?
    Mr. McGinn. Yes, sir, they are.
    Mr. Bishop. They have signed off?
    Mr. McGinn. We have made a lot of progress with them, and 
they have signed off.
    Mr. Culberson. Thank you.
    I now recognize the gentleman from California, Mr. Valadao.
    I am going to catch everybody in the order in which they 
came in. I am a little loose on the 5-minute rule, so I would 
expect common courtesy and good sense.

                         BIRD STRIKE MITIGATION

    Mr. Valadao. Thank you, Mr. Chair.
    As many of you are aware, this year, the State of 
California is experiencing a significant drought that is 
causing the fallowing of thousands of acres of productive 
farmland. Although it is easy to understand the impacts drought 
can have on agriculture, the drought is also having an impact 
on our national defense.
    Last week, I had the opportunity to sit down with the 
Commanding Officer of the Naval Air Station (NAS) in Lemoore, 
who explained to me that the drought is actually increasing the 
risk of bird strikes at the base. In short, the Navy works with 
farmers around the base to ensure the land is cultivated in 
such a way as to prevent birds from entering areas where flight 
operations take place. Unfortunately, due to the lack of 
available water as a result of the drought, farmers are unable 
to cultivate the land, increasing the risks of bird strikes.
    Last year, because of water shortages, 34 percent of the 
fields around NAS Lemoore were fallowed and the base 
experienced 43 bird strikes. This year, it is expected that 
many more acres will be fallow due to the lack of water, and, 
as a result, more strikes are expected.
    The drought is not only a threat to our country's 
agriculture supply but also an issue of national security due 
to the danger it poses to our fighter pilots and warfighting 
aircraft.
    Assistant Secretary McGinn, I understand part of your job 
is ensuring the safety of military and civilian personnel at 
the Navy's various installations. As a former aviator, will you 
elaborate on the risks of bird strikes, both to aircraft and to 
personnel? Is the increasing risk of bird strikes at a major 
airbase a serious concern of the Navy?
    Mr. McGinn. Yes, sir, it is. Some of the best days of my 
time in uniform were spent flying out of Naval Air Station 
Lemoore F-18s and A-7s.
    And I will say for the record, ``bird strikes are bad''. 
And we see an increased threat for the reasons that you 
outlined. When fields lie fallow, ground rodents proliferate, 
raptors come in to get that ready supply of food, and they 
produce a lot more danger of airplane-bird collisions.
    The base is doing a wonderful job at trying to mitigate 
that, given the tremendous constraints on water. On a normal 
year, back around 2009, the water allocation was about 40,000 
acre-feet. For the past several years, they have been able to 
get by with different types of crop rotation around 24,000 
acre-feet. But, as you know, with the tight conditions on 
drought, it is looking even less than that going forward in the 
future.
    But this is a definite concern related to aviation safety 
in Naval Air Station Lemoore. I spoke to the commanding officer 
this morning, in fact, about this, and he assured me that they 
are trying to do everything they can, but more water would 
certainly help.

               COST INCURRED BY BIRD STRIKES AND DROUGHT

    Mr. Valadao. Will you please elaborate on the costs 
incurred by the Navy to mitigate against bird strikes because 
of the drought? Aside from the bird-strike-related costs, what 
other costs is the Navy incurring as a result of the California 
drought?
    Mr. McGinn. We are trying to be and are succeeding at being 
good citizens in the State of California, throughout the State 
of California, wherever there are Navy and Marine Corps 
installations. We have cut our water consumption just in the 
past 3 years by up to 4 billion gallons, and we are going to 
continue to drive that down even further.
    In terms of costs, obviously there is the risk of bird 
strikes that we just talked about. But we are modifying flight 
patterns and, if there is a bird strike, having to repair those 
aircraft. But the biggest thing is the risk of catastrophic 
collision at some point in the future if we can't continue to 
do something about this.

                CALIFORNIA DROUGHT IMPACT ON OPERATIONS

    Mr. Valadao. Thank you.
    And I would also like to hear from the DoD and from the 
other services represented here on how the California drought 
is impacting their operations and other additional costs that 
the services are incurring as a result of dealing with the 
current drought conditions.
    And I met with Ms. Hammack last week over this, so feel 
free, if you have anything to add.
    Ms. Hammack. What I would like to add to the conversation 
is, with increased drought, there is increased risk of forest 
fire. And that has been one of the biggest challenges to the 
Army. We are watching that very closely.
    Over the last 6 years, we have had a 27-percent reduction 
in our overall consumption of water. We have a Net Zero 
Initiative to reduce water consumption further. And it is a 
concern, as we are watching water consumption, we are also 
watching forest fire danger.
    Ms. Ferguson. The Air Force has six installations in 
California, and they have been partnering with the local 
governments to comply, to the maximum extent possible, with the 
drought restrictions and also follow the Executive orders and 
public law. We can get back to you if there are any operational 
issues. I am unaware of those right now.
    But, similar to the Army, we have had installations that 
have reduced water consumption by as much as 40 percent since 
2007 through a number of initiatives.
    Mr. Conger. I think they have said it all. The services 
have done a really nice job of water conservation, not just in 
California but throughout the country. We have legislated goals 
set out for reducing our potable water consumption, and the 
Department as a whole has blown through those goals and has 
done an exemplary job of water reduction.
    Mr. Valadao. Thank you.
    That is all I have, Mr. Chair.
    Mr. Culberson. Thank you very much.
    I recognize my good friend from California, Mr. Farr, who 
has the dubious distinction, I understand, of having had more 
BRAC than any other Member of the United States Congress.
    Mr. Farr. Thank you, Mr. Chairman. I got on this Committee 
because I am the most BRAC'ed Member of Congress. And I never 
knew that 20 years later I would still be here talking about 
BRAC.
    I think that BRAC is all about promises made, promises 
kept, and promises to the United States Congress that when we 
go through a BRAC process we have a role and accomplishment and 
a goal for each one of these decisions to reduce or eliminate a 
base.
    The closing of Fort Ord, was one reason that got me to 
Congress. What DoD did in California in 1991 was to relocate 
the 1st Brigade, 7th Infantry Division Light from Fort Ord, 
California, to Fort Lewis, Washington. That was how you sold 
the idea of BRAC then. But what happened to the 7th Infantry?
    Norm Dicks was on this Committee, so excited about the 7th 
Infantry leaving Fort Ord. And the then-Congressman Leon 
Panetta was so sad about Fort Ord losing it. And, as I 
understand, in the process, both lost, because Fort Lewis never 
got the 7th Division that you deactivated.
    That is my point, that the BRAC that was sold to Congress 
never turned out the way it was supposed to. And so as you talk 
about the unloading of excess bases, I wonder whether the 
decision that they are excess or they need to be realigned is 
for real.
    But I think what this Committee deals with is that other 
side of BRAC, the uploading, the impact on the community that 
accepts the responsibility for it. And just like we are seeing 
in Afghanistan and Iraq, when we pull out, there is a 
responsibility to build the capacity of those that are left 
behind. The way we build that capacity is in cleanup so that 
the new owners can use the land. Without cleaned-up land, it is 
land we call mothballed. It just sits there; nobody can use it. 
In fact, we just build fences around it if it has unexploded 
ordnances. It becomes of no benefit to anybody. It is actually 
an economic liability to the community.
    So I am kind of shocked, if not feeling betrayed, by this 
budget in what you bring to us in your ability to clean up. It 
is just not me and my instances with the experience of BRAC in 
my district, but also the chairman has bases in Texas with 
Brooks Air Force Base, the Port Authority of San Antonio, the 
Lone Star Army Ammunition Plant in Texarkana, the Ingleside 
Naval Station. And the ranking member, Mr. Bishop, has the 
McPherson Army Base, Forest Park and Fort Gillem, the Navy Air 
Station in Atlanta, the Navy Supply Course School in Athens. 
All of those have been BRAC'ed and are still needing 
assistance.
    So my questions really go to your budget--and I have a lot 
of specific questions.
    I want to ask Ms. Hammack first, because, first of all, 
before I get into the other questions, I want to just thank 
you, because you did make some promises to this Committee last 
year that you would take care of this small little acre 
property that has become a bureaucratic nightmare to try to 
transfer, the Tidball Store, to transferring it to Monterey 
County at Fort Hunter Liggett, and I understand that the final 
touches are in place and that ought to happen this spring. And 
I want to thank you for your personal involvement in that. 
Second, I want to thank you for bringing the water to the 
veterans cemetery that the State is going to build at former 
Fort Ord.

                                FORT ORD

    But I want to really get into the cleanup at Fort Ord. We 
divided that into two categories. Essentially, the land that 
the civilians were going to use for redevelopment went through 
an ESCA, an environmental services contract, with the Fort Ord 
Reuse Authority. And that, I think, has gotten little notice 
from the Pentagon in the success it has had. It is actually 
ahead of schedule and, I think, under budget so far. Great 
news.
    But the other half of that is the land that is going to 
stay in Federal jurisdiction, which the Army transferred to the 
Bureau of Land Management (BLM) and recently has been declared 
a national monument. But there is a lot of that land, about 
7,000 acres, that still have to be cleaned up. And I don't know 
how you are going to get from here to there to get it cleaned 
up with the budget you have. You are only budgeting $1.3 
million for the cleanup of Fort Ord. That is a 92-percent 
reduction from last year.
    So how do you think we can do the mission that is required 
out there in the timelines promised with such little resources? 
How are we going to get it cleaned up?
    Ms. Hammack. Well, it is good to see you again.
    And we are working hard at Fort Ord. The priority was 
placed on transferring those lands that had use to the 
community first.
    What is interesting is that, in prior BRAC rounds, the 
environmental burden of closure was high, and that is because 
there was not a lot of focus on cleaning up the lands while 
they were being stewarded by the military services. There isnow 
an effort to both clean up our active bases as well as those that have 
been closed.
    So what we found in the 2005 BRAC round is that the 
environmental remediation costs were much, much lower than 
those of the prior BRAC rounds.
    And so what we are doing right now is we are focusing on 
those BLM lands. One of the challenges is something that 
Representative Valadao brought up, is the issue in regards to 
clearing the land so that we can clean them up.
    Mr. Farr. It is no different from the ESCA cleanup than it 
is for the BLM. They are right next to each other.
    Ms. Hammack. They are, except that we left the training 
ranges, which have the heaviest amount of burden of cleanup, to 
the last. And those are what takes the longest to clean up 
because we have to clear the brush first prior to the cleanup, 
and there are limitations put on us by the State and that 
region as to the amount of controlled burns that we can do in 
order to clean up the lands.
    Mr. Farr. But even when you have a controlled burn that 
gets out of control, burns a lot more than you intended, that 
presents an opportunity to clean up, but you don't use that 
opportunity. You just had to wait for the brush to come back, 
go through the process, burn it all over--just a total dum-dum 
way of handling a problem.
    Anyway, I just--there is an end sight in here for the BLM 
land then to get cleaned up, and there is enough money in the 
budget to do that?
    Ms. Hammack. That is something that we are looking at to 
see what we can accelerate at Fort Ord, because you are right, 
last summer a controlled burn did get out of control and we 
burned more land than we were authorized. It did not go off 
that land, but it is something that we are working to address 
right now.
    There is money in the budget that comes--we were able to 
combine the prior-year BRAC round closure budgets with the 2005 
closure budget. So as we sell off land from the 2005 BRAC 
rounds, it goes into that environmental restoration budget and 
helps fund environmental restoration for all BRAC lands. So we 
are able to have an increased funding stream to address the 
issues as you mentioned.
    Mr. Farr. Well, I want to get into that, too, but I will 
maybe wait for another round on that. I want to just finish off 
a couple things.

                          CAMP ROBERTS BRIDGE

    One is the Camp Roberts, which you visited. Camp Roberts is 
run by the California National Guard and the MILCON 
distribution to the States has a distribution to the Army 
National Guard. The National Guard and Reserve training bases 
are ideal places for the Army component to train which is what 
you are doing at Camp Roberts--we were talking about that 
before the hearing, and the incredible facilities that often 
the Active Duty military uses at these bases.
    What I am concerned about is how the Army distributes the 
money for the MILCON funds to the States for the National 
Guard.
    Ms. Hammack. When we look at our overall budget, we 
distribute the MILCON budget by a ratio of the amount of 
infrastructure the services have. So if you look at the plant 
replacement value for the Active Army, that is about 70 percent 
of the total inventory of infrastructure. The National Guard is 
about 20 percent, and the Army Reserve is about 7 percent.
    Mr. Farr. Well, I am sure when you visited Camp Roberts--
and I thank you for doing that--you saw that long bridge, the 
high-water bridge, which is falling apart and can't be used at 
all. It is a tank trail connecting to Fort Hunter Liggett. But 
the problem is that it is the only way, the only road that you 
can access emergency services. So with that bridge out, you 
have to drive over an hour in emergency situations to bring, 
you know, people to where they can get care at Camp Roberts.
    And the bridge, as I understand it, was the (the Adjutant 
General) (TAG's) number-one priority for MILCON in the last 2 
years. However, no moneys have been funded to help restore that 
bridge. So how much weight does the State's top priority get in 
the criteria for MILCON funding?
    Ms. Hammack. The National Guard looks at the priorities 
from all of the States and puts them together. And earlier I 
explained that we prioritize on the basis of fixing the most 
failing, the most urgent needs. And sometimes a State's number-
one priority may not be number one for the entire National 
Guard.
    Mr. Farr. Well, when is the high-water bridge at Camp 
Roberts going to be in a FYDP?
    Ms. Hammack. I am going to have to take a look at that and 
get back to you, sir.
    [The information follows:]

    The High Water Bridge was closed to traffic in 2005. The closing 
has been mitigated by routing traffic into the training range area 
across a bridge approximately 3-4 miles to the southwest. Standard 
operating procedures require medics with transportation to be present 
at ranges during training to protect human life, health, and safety. 
Procedures call for medics to evacuate non-critically injured personnel 
directly to civilian hospitals. Critically injured personnel would be 
transported by aero-medical evacuation weather permitting, or the 
medics utilize ground transport to meet civilian medical transport on 
main post. This serves to mitigate any potential delay of responding 
emergency medical teams by road.
    The High Water Bridge at Camp Roberts is a requirement for the 
California Army National Guard (ARNG). However, an overwhelming number 
of competing priorities has made funding even the most critical MILCON 
projects a challenge. In order to best identify projects to include in 
the FYDP the ARNG uses a ranking process called the Infrastructure 
Requirements Plan. This process assesses the top two projects from each 
of the fifty states, U.S. territories and the District of Columbia and 
scores the projects on six criteria. The process includes participants 
from key state representatives and is overseen by an Adjutant General. 
Recommendations from this process are briefed to Senior ARNG Leadership 
for final decision. Until the prioritization process is run for this 
upcoming year and the available MILCON funds are determined in the 
upcoming Department of Defense Program Objective Memorandum process it 
is unknown when this project for Camp Roberts will included in the 
MILCON FYDP.
    ARNG is examining alternative (non-MILCON) options for funding this 
project, including repairs that may use operations and maintenance 
(O&M) funds consistent with fiscal rules and congressional notification 
requirements. Utilizing this option could allow bridge restoration to 
begin in a shorter time frame than a MILCON funded project. The 
National Guard Bureau is exploring a source of funds for this option. 
If our investigation of the use of O&M funds shows it to be feasible 
and prudent, it could be a better facility investment option than 
programming in the FYDP in terms of timeliness.

    Mr. Farr. Okay.
    I will tell you, I have to say, one--because I have other 
questions for the other witnesses, but I just want to say that 
I am very critical of this process and slowness and awkwardness 
in UXO cleanup. However I think you are doing a stellar job in 
conservation.
    I am very proud that Fort Hunter Liggett was selected in 
2011 as the pilot site for Net Zero Energy Initiative. And 
since then, two megawatts of solar arrays have been 
constructed, and a third megawatt is under design. This is 
really clever. Army had been parking all their tanks and trucks 
in the direct sunlight, and the heat just, you know, 
deteriorates them. What Army did is built carports, and on top 
of those carports is nothing but a solar array. I mean, it is 
huge. And they are able to generate enough electricity through 
that array to sustain the whole base.
    I don't know if these guys were pulling my leg, but they 
say these solar plates are so sensitive you can generate 
electrons with a full moon. It might be possible. Anyway----
    Ms. Hammack. Some. Just not that much. But you can generate 
some.
    Mr. Farr. So I want to praise you.
    And I would love to have you, Mr. Chairman, come out and 
see these places. Maybe we can get a CODEL. It is hard to visit 
Monterey County and all those beautiful places in California, 
but maybe we can do it. I like to brag about this Net Zero 
Initiative.
    Mr. Culberson. If there is any part of the country it would 
be worth seeing, it is your district. You have one of those 
beautiful parts of the United States and that coastline out 
there, Sam.
    Mr. Farr. Well, come on out.
    Mr. Culberson. I am not much of a traveler, but we do need 
to get out there.
    Mr. Farr. We have a lot of rocks--we have some rocks out 
there.
    Mr. Culberson [continuing]. It is also the anniversary of 
D-Day.
    Mr. Farr. Oh, yeah.
    Mr. Culberson. So we need to be thinking about that as a 
committee.
    Mr. Farr. Okay.
    Mr. Culberson. I am going to turn over a new leaf this 
year.
    I really appreciate you all's patience. Again, I want to 
try to give everybody time to answer questions, so I appreciate 
your indulgence.
    And we turn to Mr. Graves.
    Mr. Graves. To each of you, thanks for being here.
    And first, let me just say we, all on this panel, have the 
greatest respect for what you are trying to do with limited 
resources and difficult challenges, but you also hear maybe 
questions or concerns in a bipartisan fashion on this panel 
which I think is healthy. And I appreciate your transparency in 
trying to answer the questions.

             MOVING BRAC FORWARD WITHOUT CONGRESS APPROVAL

    I just have a couple of questions. The first one to Mr. 
Conger, relating to what Secretary Hagel said a few days ago, I 
guess a few weeks ago. And you will recall, and I have the 
quote here, that as it relates to BRAC, he made the comment: 
``If Congress continues to block these requests, even as they 
slash the overall budget, we will consider every tool at our 
disposal to reduce infrastructure.'' So was he suggesting that 
he would move forward without Congress' approval?
    Mr. Conger. Well, a couple of points. One, he used the word 
``consider.'' So the question is, do you look at all your 
options if we don't get a BRAC? And I think the answer is yes. 
He has--there exists authorities to close and realign bases 
that don't involve BRAC. And whether he considers those 
options, I think he made it clear. And I am not going to say 
anything different than the Secretary said in that context.
    Did he say that we were going to go ahead and take actions 
if Congress didn't pass a BRAC? No, he said that they were 
going to be considered.
    Mr. Graves. Which would mean that he is suggesting that he 
might consider moving forward without the approval of Congress 
or this panel here.
    Mr. Conger. Well, those authorities came from Congress in 
the first place, and in all honesty, there is very little that 
can happen in the Department without the approval of Congress. 
Congress appropriates, as you well know, any money that we have 
to do anything. So it is a question of the authorities that 
Congress gives to act, and the specific actions are all going 
to have to come through here eventually.
    Mr. Graves. And I assume it is safe to say each of you 
would prefer Congress directing the path forward as opposed to 
the Department going around Congress?
    Mr. Conger. Well, first of all, nobody is pretending that 
anybody is going to go around Congress, okay? The question is, 
is the path forward that Congress authorizes. The second thing 
is that BRAC is clearly the preferred way to close and realign 
bases. It is more analytical. It is more transparent. It is 
more objective. It affords benefits to communities when 
properties are disposed of. If there was, say, a section of a 
base that was declared excess today--and that happens from time 
to time--that simply gets sold without consultation with the 
local community. Under BRAC, when a base closes, the community 
gets to decide what happens to the base. And that means they 
can direct it toward economic job-generating activities. There 
are a lot of advantages to local communities from BRAC vis--vis 
other disposal mechanisms.
    Mr. Graves. So, as we look forward, and I respect the 
suggestions that you all are making, and you have made it 
clear, each of you, all four of you have said that you support 
and encourage BRAC moving forward. If, for whatever reason, 
this panel and the House of Representatives and the Senate does 
not agree with you, I would suggest and that the Secretary be 
very careful in considering going around Congress because I 
don't think that is the healthiest process moving forward.

                    EFFICIENCY GOALS OF THE SERVICES

    Just another question to each of you. If you have maybe a 
number in mind, each of you has spoken about efficiency as 
being the next BRAC. Is there an efficiency goal? Because I 
don't know that I heard that. Maybe you said it, and I missed 
it, but is there like a number, like a so many percent?
    Mr. Conger. So the figure that Mr. Hale used when he was 
testifying with Secretary Hagel last week I think was that we 
have a projection based on a 5 percent reduction inplant 
replacement value, which is a fairly modest number that, based on 
previous BRAC rounds, that it would be approximately $6 billion worth 
of costs over the period of the BRAC and approximately, when it is all 
complete, a $2 billion annual return. There would be savings during 
the--you know, if you take an action at the beginning of any BRAC 
round, the savings begin to accrue. So, during the period of BRAC, the 
estimate is that the cost would be a wash. So you would be saving 
roughly the same amount that you would be spending over the course of 
the 6 years, and then you would get approximately $2 billion a year 
recurring thereafter if you assume that 5 percent, modest 5 percent.
    Mr. Graves. And that is in total all the way across the 
Department?
    Mr. Conger. Yes.

                        WHERE ARE WE AS A NATION

    Mr. Graves. Okay. And then I guess my last question for 
each of you, if you could think through this and maybe not 
through the lens of your position but through the lens of 
caring and loving your country, you know, as one who has 
families and such, when you really think about where we are as 
a Nation, I mean, we all know we have enemies. We have those 
around the world that do not like us and want to destroy us, 
and a lot of children all across our country that go to bed 
every night and they sleep well knowing that we are safe and we 
are secure. And I hear the conversation that we have had today. 
And I guess the question for me to each of you is when you 
think about where we are as a Nation and when you think about 
the assets we have, the property, the equipment, personnel and 
such, do we have too much or too little in defending our Nation 
and looking at it in the future?
    Mr. Conger. Let me answer that question broadly. You are 
talking to the installations folks, and so it is other 
officials within the Department.
    Mr. Graves. I am just asking your personal opinion, not 
through MILCON itself, but just when you look at the concerns 
across the globe.
    Mr. Conger. Absolutely. I think that it is important to, 
though, for us as witnesses for the Department keep that in 
mind, so as the installation folks, can we say that we have too 
much infrastructure? Yes. And, moreover, what is really 
important about this is that the resources that are going to 
extra infrastructure that you don't need could be going to 
warfighters that do need the money. The training reductions 
that have occurred over the last couple years and the 
shortfalls that they have encountered and the readiness 
shortfalls are critical and far more critical than funding 
excess infrastructure.
    Mr. Graves. Thank you.
    Ms. Hammack. On behalf of the Army, one of the challenges 
we have is reduced funding from Congress. And we simply do not 
have the money to operate buildings that are empty. And when we 
mothball them and when we shut off utilities, the building 
degrades. Then it becomes of no use to the Army. It becomes of 
no use to the private sector, so that is a lost opportunity for 
the private sector. Where it could be put to productive use by 
taxpayers, it is no longer of value to anyone. So BRAC is an 
advantage in that it puts a base in productive use in the 
community versus having it sit idle and empty.
    The challenge is we still need to maintain it. We still 
need to operate it, and under the other authorities Mr. Conger 
referred to, we cannot reduce our manning without notification 
to Congress. So you can't reduce your manpower and you can't 
reduce your square footage and you can't reduce your 
boundaries, so we are sort of tied up in knots because for the 
Army 50 percent of our budget is manpower. And we are reducing 
that as the budget has gone down, but it takes a while to get 
those savings because we have a responsibility to try and 
ensure that the soldiers who leave the Army and their families 
are taken care of and have jobs. So as the budget goes down for 
manning, what is left is looking at your training, your 
modernization, and your facilities. And each one of those 
budgets are taking deep cuts to try and preserve as much of the 
forces as we have.
    Mr. Graves. I understand. But if there weren't these cuts, 
would you suggest that we need more in defense related items? 
My general question is, do you feel we are spending too much 
overall or too little, and are we well equipped to defend this 
great Nation into the 21st century from the enemies around the 
globe? That is the general question.
    Ms. Hammack. Well, I would like echo the Secretary of 
Defense's comments for the Army, taking cuts below 490 is a 
concern, and it is a risk.
    Mr. Graves. Thank you. Thank you.
    Mr. McGinn. We need more ships. One of the ways of getting 
those ships is to allocate budget dollars to them. I am an old 
Cold Warrior. I will go back to 1991, when we had the first 
round of BRAC. We have had five since then. In the Department 
of the Navy we have closed 186 installations or functions; 52 
of them were major. If we had not been able to do that over the 
course of the ensuing 23 years in those five rounds of BRAC, 
our budget would be absolutely broken. I don't know how many 
ships we wouldn't have out there today.
    So do we need more dollars to do the things that Katherine 
just outlined? Yes. We always need to make that balance between 
the readiness of today and the capabilities of tomorrow or 
future readiness. And we need to pay for manpower. We need to 
pay for platforms. So, yes, my answer would be we could.
    But one of the ways, given a budget cap and the imperative 
to address budget challenges as a Nation, we need to make sure 
that every dollar that goes for defense goes to where it is 
going to do us the most national security good and keeping 
unused infrastructure, as painful as that process can be, is 
not the best use of those taxpayer dollars.
    Mr. Graves. Thank you.
    Yes, Ms. Ferguson.
    Ms. Ferguson. As the Air Force built the budget, we had to 
make some very difficult choices. And I think you see that 
reflected in our budget. We reduced force structure. We reduced 
A-10s, U-2s. We took significant risk in military construction, 
installation, and support. I think it was the right risk as we 
go forward, but it is given where we are in the budgetary 
climate right now.
    Mr. Graves. Thank you.
    Thank you to each of you.
    Mr. Conger. Sir, could I have one follow up? It is also the 
case, and I think this is more to your point, that the 
administration sent over a $26 billion additional fund for the 
Defense Department that was above the budget caps that included 
a variety of additional requirements, unfunded requirements the 
Secretary referred to them as, which includes $2.9 worth of 
MILCON and $4.2 billion worth of facilities sustainment, 
restoration, and modernization. That is $7 billion of facility 
money that was identified and sent over as additional needs 
beyond the budget.
    Mr. Graves. Thank you.
    Thank you to each of you.
    Thank you, Mr. Chairman.
    Mr. Culberson. Thank you, Mr. Graves.
    I want to be sure everybody gets time to ask questions. I 
am, as you have noticed, not real strict with the 5-minute 
rule, but I do want to make sure everybody knows that we have 
got votes between 3:30 and 4:00. So if I could turn to my good 
friend from Philadelphia, who I enjoy so much working with on 
the Commerce, Justice and Science Subcommittee on so many good 
causes, my friend from Philadelphia, Mr. Fattah.
    Mr. Fattah. Thank you Mr. Chairman.
    Let me ask briefly, then, about installations and 
infrastructure around caring for injured soldiers. So I am 
particularly interested in traumatic brain injury and so on. So 
we have a lot of all-in costs when we have boots on the ground, 
say, for instance, in Afghanistan, in terms of being able to 
evacuate and treat soldiers quickly.

                 SEQUESTER IMPACTS ON SUPPORT SERVICES

    Can anyone talk about whether or not in the sequester or in 
any of these other rollbacks any of these support services are 
going to be affected in terms of hospitals and in-theater help 
for soldiers who are injured.
    Ms. Hammack. In the Army, we are working to protecthealth 
care and those kind of services to our soldiers as much as possible. So 
that is why we are taking cuts in military construction. We are taking 
cuts in sustaining our facilities. We are taking cuts in modernization. 
But taking care of our soldiers is a priority.
    Mr. Fattah. Anyone else want to comment?
    Mr. McGinn. Navy and Marine Corps, same story. That is job 
one, to take care of those warriors, especially those who have 
suffered the injuries of war and their families. So our 
investment in the hospitals over the past years in particular, 
we just opened a brand new hospital at Camp Pendleton out in 
California for the Marine Corps. We have a world class facility 
right here in Bethesda, and so----

                     LANDSTUHL HOSPITAL REPLACEMENT

    Mr. Fattah. What about in Germany, are we going to build a 
new hospital, or what are we doing?
    Mr. Conger. Sure. Yes, we are going to build a new 
hospital. I was just out at the site a couple weeks ago. There 
are often environmental problems with cutting down trees in 
Germany. It is very, very difficult.
    Mr. Fattah. This is the biggest challenge we have there is 
the tree issue, and we have----
    Mr. Conger. And I can tell you, eyes on target, that trees 
have been cleared. It is an impressive sight to see this forest 
and this big empty clearing in the middle of the forest. The 
German Government has executed that.
    Mr. Fattah. So can you talk to me, you were just there, can 
you give the committee some insight about the ensuing timeline?
    Mr. Conger. The specific timeline, I know that it is an----
    Mr. Fattah. At least give us a general picture of it.
    Mr. Conger. Yeah. I mean, in general, the project is 
proceeding. There have been several increments funded already. 
There is another large increment that we are requesting this 
year. I can give you more details.
    Mr. Fattah. Okay. Well, let me just drill down for one 
second, and I will leave at this, Chairman. I am very 
interested in the construction and architectural focus on the 
operating rooms relative to brain surgery and whether or not we 
are going to be at the edge, at the very cutting edge of making 
sure that as the hospital is constructed, that we are taking 
into account where the primary focus of injuries now in large 
measure happen to be.
    Mr. Conger. In fairness, sir, I am not a brain surgeon, so 
I am not going to be in a position to provide that amount of 
detail right here at the desk, but we will get that for you for 
the record and let you know what the capabilities of the new 
hospital will be.
    [The information follows:]

    With regard to the design of the Rhine Ordnance Barracks Medical 
Center, the Operating Room (OR) Complex provides surgical capabilities 
in 11 surgical specialties, emergency, and elective procedures. There 
will be 9 ORs including one Cystoscopy, one Neurosurgical, one 
Orthopedic, and six General ORs. Though separately designated, these 
operating rooms are not for dedicated use and all types of cases can be 
scheduled in each room. The OR will provide Class C level of care, as 
defined by the American College of Surgeons: major surgical procedures 
that require general or regional block anesthesia and support for vital 
bodily functions, providing for traditional and minimally-invasive 
surgical procedures in a technology-advanced and audiovisually 
integrated environment.

    Mr. Fattah. Thank you. If you would get it to the chairman, 
he is in charge, and he will make sure that those of us who are 
further down the totem pole, it is shared with.
    Thank you very much, Mr. Chairman.
    Mr. Culberson. Thank you very, very much.
    And I would, when the VA comes to talk to us, we need to be 
sure that is a part of the discussion, is the work that the VA 
is doing to make sure that they are treating these young men 
and women with these traumatic----
    Mr. Fattah. Mr. Chairman, as you know, in the first 
instance, when the soldier is harmed, they are in the DoD 
system, and then they are treated and then they are turned over 
to VA at some point after discharge. So we have got to make 
sure that the front end system provides the very best care.
    Mr. Culberson. There is remarkable things being done at, 
for example, the VA in Houston is working in conjunction with 
Baylor and University of Texas in this area, and that is why I 
bring it up.
    Mr. Fattah. That is why I am going to work with you; we are 
going to do even more remarkable things.
    Mr. Culberson. Thank you very much.
    At this point, let me recognize Mrs. Roby.
    Mrs. Roby. Thank you, Chairman.
    Thank you all for being here today. This is for Secretary 
Hammack and Secretary Ferguson. You know when you visit an 
active military installation, you very quickly become aware 
and, as you have mentioned, about equipment upgrades, as you 
have already talked about infrastructure. For example, Maxwell 
Air Force Base has the second oldest control tower in the Air 
Force. And at Fort Rucker, the Helicopter Overwater Survival 
Training Facility host is completely outdated and falling 
apart. And as a Member of Congress, and I have expressed this 
to you, I have become more and more frustrated with my 
inability to help resolve these issues. I know installations 
all over the country have needs like this. It has already been 
voiced by all of my colleagues here today, so I am interested 
to hear you talk about how you prioritize.

               PRIORITIZING SERIOUS INFRASTRUCTURE NEEDS

    I know you talked about readiness and if you need to expand 
on that, that is fine. But how does one get on the list, so to 
speak, and how is final priority determined? I shared with you 
a conversation that I had out at Maxwell when I am up in this 
tower that, by the way, it is so old, Mr. Chairman, that the 
escape route if there is a fire consists of a cable that runs 
to the roof of the building next to it, and you have to get in 
a net like contraption and slide down the cable to get out.
    So I am explaining to Colonel Edwards at Maxwell, you know, 
that you now have to lobby to the Pentagon to get this dealt 
with because of rules that we have here in Congress. I just 
want to know how you guys are going about prioritizing these 
really serious infrastructure needs, and if you two will 
comment on that based on the Army and Air Force, that would be 
great.
    Ms. Hammack. The way we prioritize, it does come up through 
the command, so they have to talk with their command first. 
Their command then prioritizes, and then it comes to the 
Pentagon. And our focus right now with reduced budgets is a 
focus on failing. So a facility might be adequate. They would 
like to do more there, and they think they should do more, but 
it is adequate to achieve the level of training they need, but 
it is not failing. So, therefore, it would not have as high a 
priority as a facility that is termite-ridden, that we are 
concerned about the structure, that one corner of the building 
is up on jacks and it desperately needs to be replaced because 
that is considered failing. So that is what our focus is on.
    Mr. Culberson. If I may, in support of what Ms. Roby is 
asking, and also Sam was asking about a bridge, it seems to me 
human safety and health ought to be a top priority. If they 
can't even get out of the building, they have to ride down a 
rope in the event of a fire, and they can't get to an emergency 
hospital room in Sam's district but for an hour drive because 
of a broken bridge, that ought to be top of the list, it seems 
to me, isn't it? And if not, why not?
    Ms. Hammack. If it is failing or if it is life, healthand 
safety, then, yes, it goes to the top of the list.
    Mr. Culberson. She ought to be at the top of the list, and 
so should Sam and his bridge.
    Ms. Hammack. I will let the Air Force----
    Ms. Ferguson. I can answer the air traffic control, I can't 
answer the bridge question, though.
    What I would like to offer is if we could come over and 
talk to you and walk through how the Air Force goes through and 
prioritizes, but very similar to how the Army does it; the 
requirements come up from the base to the major command. And we 
do look at life, safety, health as part of the equation, but if 
you go back and you look at our fiscal year 2015 budget 
request, we have a very limited number of current mission 
MILCON projects in there. Basically, with our funding level and 
our support to our combatant commanders, our combatant 
commanders' requirements are taking up--and they should--taking 
up over 50 percent of our MILCON budget for this cycle. Another 
third of the budget is toward supporting new mission, such as 
the KC-46 and F-35. And so there is no money really left over 
for any other current missions. So what we are doing is we are 
using our O&M money to keep those facilities going, keep them 
operating, and I have been out to Maxwell Air Force Base, 
Alabama recently. They do have a lot of new facilities there 
and have had quite a bit over the last few years, but we were 
not able to get to that when we still had current mission.
    Mrs. Roby. I just used it as an example for, you know, Air 
Force wide and Army wide. These are specific to my district, 
but I know I am not alone in those concerns about how are we 
making these decisions based on, you know, what the mission is 
at that particular installation but the mission overall. And so 
those are my concerns. I appreciate it.
    Ms. Ferguson. And I would like to offer to you or any of 
your MLAs, we can get a group over and walk through our whole 
process.

       MOVING NATIONAL GUARD/RESERVE UNIT TO ACTIVE INSTALLATIONS

    Mrs. Roby. We will take you up on that. Thank you.
    Also, in light of the limited budget, is the Air Force 
considering moving the National Guard and/or Reserve unit on to 
active installations to share facilities or services and 
especially those that already are adjacent to or near by 
installations?
    Ms. Ferguson. We don't have a current ongoing initiative to 
look across the Air National Guard to look to move them onto 
Active Duty installations. We look at them predominantly during 
a mission change to see if it would make sense to operate out 
of an Active Duty location and look at the business case 
analysis for that, so we do it on a case-by-case basis.

           UTILIZATION AND EXCESS INFRASTRUCTURE IN THE ARMY

    Mrs. Roby. To Secretary Hammack, we have already talked 
about the request for the 2017 BRAC, and I recognize that there 
is a need for all of the services to tighten belts and that 
there will be an excess of infrastructure with the drawdown. 
But as you indicated, the Army was conducting this facility 
capacity analysis. Can you elaborate for all of us on your 
preliminary results with regard to the utilization and excess 
infrastructure in the Army and especially in light of the 
restructuring plan and how the excess infrastructure impacts 
the readiness and modernization. This is something that I know 
you have put a lot of emphasis on.
    Ms. Hammack. Absolutely. And when we are able to 
consolidate, this wasn't just a look at Active Army but also at 
Guard and Reserve. Guard and Reserve are doing a very active 
study to look at consolidation at the request of Congress. I 
think phase three of the report is due in December of this 
year. In identifying places that they could consolidate into, 
many of those are in to Active Army bases. One of the projects 
that the National Guard put forward is consolidating--I can't 
remember--I think it was like 13 individual buildings into one 
building at half the square footage, but in 13 individual 
buildings, there were quarters and places that weren't 
productive. Each of them has their own set of restrooms. Each 
of them has their own set of kitchenettes, yet when you merge 
it together in one building you merge some of those central 
core facilities together, you get a better square foot 
utilization. So it actually savesthem money, reduces their 
square footage, reduces their operating costs and improves their 
operations. So those are the kinds of efficiencies that we are really 
looking at. So when we look at excess capacity, we say that each 
soldier needs X amount of square footage for sleeping quarters, X 
amount of square footage for administration, X amount of square footage 
for the various tasks that they do. So this was a macro capacity 
analysis looking at our real property inventory, looking at the size of 
our force and the roles of our force, and then looking at the 
requirements base. And when we put it all together, that is where we 
identified, on a macro basis, the 18 percent excess capacity.
    With authorization for another round of BRAC, one of the 
first steps is a capacity analysis that looks at each 
individual installation, just like we are doing in Europe, and 
identifies exactly where that square footage is, what kind of 
space it is and what could consolidate into it, where are those 
viable facilities so we can make the best use of the 
infrastructure we have. That is what we need in a 2017 BRAC.
    Mrs. Roby. Okay, thank you.
    Mr. Chairman, I have a couple more questions, but I can 
save them. I know there is others that need to ask questions. 
So thank you.
    Mr. Culberson. Votes are going to happen in about 10 or 15 
minutes. Thank you very much.
    Mrs. Roby. Okay, thank you.
    Mr. Culberson. Mr. Nunnelee.

                     MILITARY CONSTRUCTION BUDGETS

    Mr. Nunnelee. Secretary Hammack, I want to thank you for 
taking time to visit Mississippi, the Corps of Engineers 
Research and Development Center in Vicksburg. It is not in my 
district, but it is an important part of our State. And I know 
that you realize, or you wouldn't have gone there, the 
important work they do in terms of supporting our Nation's 
Civil Works Water Resource Infrastructure and also the work 
they do in support of national security Army installations. 
While I am pleased that these labs have the support in the 
minor MILCON process, I know there are times they take a back 
seat to other national priorities in the major MILCON 
programming and budget process over the years. It just seems to 
me if we are going to ask them to do a job and we recognize 
that the job they are doing is vital for both our civil works 
and our national security, we have got to make sure that they 
have the resources that are necessary, including 
infrastructure, to accomplish that job.
    So I just want to ask you to make sure you cooperate with 
Ms. Shue and her staff when you develop future MILCON budget 
requests so that the needs of this and other labs are not 
ignored--if I can just get you to respond to that briefly.
    Ms. Hammack. Absolutely, and it is something that we are 
looking at our industrial base and our labs to ensure that they 
are appropriately funded. The challenges are, and especially 
the challenge in our fiscal year 2015 budget, it is so low and 
the cuts are so deep, it is challenging us just to support the 
force that we have, so we are unable to fund some of the 
science and technology labs the way we would like to.

                           EUROPEAN FOOTPRINT

    Mr. Nunnelee. Thank you.
    Secretary Conger, you talked about reducing our footprint 
in Europe. I don't think we have really talked about the 
situation in Ukraine, in Crimea, and what happens if we do 
reduce our footprint and what impact Ukraine and Russia will 
have on that.
    Mr. Conger. It is important to recognize that the study 
that we are doing is not about reducing the amount of people we 
have over there or even the force structure, the number of 
planes or ships or etcetera. What we are looking at is given 
the force structure that we have today, what is the most 
efficient lay down of infrastructure? And we have to take into 
account surge capacity there, too, and under various 
operational plans, how much additional capability would you 
need if you had to stress the system? And that has been 
supplied by European commands, and we have incorporatedthat 
into our analysis, so we have that flex.
    Given all of those requirements, do we still have extra 
space, and the answer is yes. So the question is one of how do 
you fit that force structure and that surge capacity into the 
smallest and most efficient footprint? And there will be some 
inefficiencies to be gained, but it shouldn't affect our 
ability to respond to any crisis.
    Mr. Nunnelee. Thank you.
    Thank you, Mr. Chairman. I yield back.
    Mr. Culberson. Thank you very much, Mr. Nunnelee.
    And Mr. Fortenberry.
    Mr. Fortenberry. Thank you, Mr. Chairman.
    Within the last year, I was looking at one of our key 
pieces of military infrastructure with a four star general. And 
as we were speaking to some of the troops we stopped and there 
was a young airman, a young woman who was an airman--do we say 
airwoman?
    Ms. Ferguson. Airman.
    Mr. Fortenberry. The general stopped and looked at her and 
asked her, where are you from? Now, she is probably 19, and 
this is a four star general, Congressman next to her, little 
bit of intimidating, out-of-the-blue set of circumstances, and 
so she hesitates and softly says, Do you mean where I was born 
or where I live now? And he said, Yeah, where are you from? 
Where were you born? And she very quietly and softly said, 
Russia. And the general looked at me and said, I can almost 
guarantee that the Russian generals reviewing his troops never 
hear that anyone was born in the United States there. And he 
went on to ask her, Why did you join the Air Force? She said, 
Well, this country took me in when I was in need, and I wanted 
to give something back.
    Now, I was in conversation with someone from a foreign 
country, a developing country recently, who pointed out to me 
that we forget how strong we are. Now, we are here talking 
about difficult budgetary times and how we are going to have to 
think creatively, and sometimes when things are under tension, 
you get rid of that which was old and no longer necessary and 
prioritize that which is needed based upon emerging trends and 
the constraints that we have.
    So budgets, as tough as they are, can be times in which 
they force us all to think creatively in how to reinstruct 
things, but I do feel your pain. And it is painful for us as 
well, but thank you for your professionalism in trying to get 
through this in a responsible manner. I do want to want to ask 
for an update from you on the progress of the strategic command 
new building, which is in my district. It is my understanding 
that strategic command accepts the President's budget level. I 
can assure you that the dirt movers were there digging that 
hole even deeper this winter, that that has progressed well.

                 BUDGETARY PROCESS IMPACTS ON STRATCOM

    Can you give me any further insights on how the budgetary 
process is unfolding and any impacts on the new building?
    Ms. Ferguson. In our fiscal year 2015 budget request, we 
have requested $180 million to fund the last increment of the 
U.S. STRATCOM facility; 15 percent of the facility is complete 
right now. We awarded that project in September of 2012, and it 
is on track to complete the facility construction in 2016. And 
then there will be a period of time for about 2 years, where 
all the communications and the other equipment will go in. But 
right now, it is still on track. We have got a senior executive 
steering group that reviews it very closely and consistently, 
and they were just out there 2 weeks ago, so we are very 
comfortable with where we are.
    Mr. Fortenberry. Good. I hadn't heard anything otherwise, 
so that is just good confirmation. I appreciate that.

               BRAC AND ASSOCIATED ECONOMIC REDEVELOPMENT

    Let me bring up a few points that have already been covered 
and we may be able to unpack them further. In any BRAC round, 
is there an associated economic redevelopment plan that goes 
along with that that works in conjunction with local 
communities? That was mentioned, I believe, by you, Secretary 
Hammack, but I assume the Federal Government plays some sort of 
transitional role in helping figure out the bestand highest 
possible next use.
    Ms. Hammack. Well, what we do is coordinate with a local 
reuse authority that is usually stood up by the State and the 
community there, so the local reuse authority weighs in heavily 
as to type of reuse that they would like to see, and they work 
to market the facility as we work to transfer the property.

                             MARKETING BRAC

    Mr. Fortenberry. As a suggestion, in terms of marketing the 
concept of a BRAC, I think interweaving this type of commentary 
with the suggestion that we are going to have to reduce excess 
capacity and close things is a good first presentation to, 
particularly to many communities out there, that this is not 
going to leave you high and dry. I mean, obviously, it will 
cause a change, which may be difficult in some circumstances, 
but I would suggest that be an advertised component of the way 
in which we talk about this.
    Ms. Hammack. Absolutely. And there is a group called the 
Association of Defense Communities, which we have met with this 
year, and we had those kind of direct conversations and 
discussions. And we meet with many communities. Right now, 
there are three or four communities that come in a week to the 
Pentagon that we meet with and we talk about how we can 
increase the reuse, what kind of work we can do together to 
ensure it is of benefit to the community.
    Mr. Fortenberry. This is helpful to know. All of you have 
clearly wanted to emphasize your desire for a new BRAC round in 
your commentary, but I think that this is helpful to know that 
you are already doing this, but I think splashing that high on 
the wall would be a good idea.
    Ms. Hammack. Thank you.

                   SYNERGIES OF FACILITIES AND FORCES

    Mr. Fortenberry. The other question that I had, I think 
Congresswoman Roby mentioned it, but combining Guard and 
Reserve components, now once upon a time, we invented our 
current military. And you are living with legacy systems, 
legacy structures that maybe made optimal sense in a previous 
time. The discussion about, a high level discussion about the 
appropriateness of not only combining infrastructure but the 
concept, the very concept of Guard and Reserve components into 
one, where is that? Is this the front end of that kind of 
discussion in terms of building realignment?
    Ms. Hammack. There are synergies. There are synergies in 
training. But when we talk about facilities, we look at 
synergies in the facility itself. In the last round of BRAC, 
there was a lot of consolidation and joint use readiness 
facilities. One I visited in Oregon, they pulled in Fish and 
Wildlife Service, BLM, two Guard units and a Reserve unit all 
into the same building. And part of the people used the 
building on the weekends and part used it during the week.
    Mr. Fortenberry. Can I interject something? This seems to 
be happening on an ad hoc basis, though, based upon something 
that you said just a few moments ago. Rather than a coordinated 
initiative from the top down to continue to look at options--we 
have got the same thing. We have got a joint force headquarters 
in Lincoln, Nebraska, where we had Guard, State Patrol and 
emergency management personnel all housed. It works 
wonderfully. But I think, again, as we move forward, looking at 
smart ways to not only combine facility use but rethinking 
overlapping missions, what we don't want to do, and this is a 
little bit of an editorial comment a little perhaps beyond your 
purview, is lose the vast depth of knowledge and experience 
gained particularly by our Guard in this last 10 years of 
difficult warfighting. If we go back to just regular status, we 
are going to--and it will be all the harder if we have an 
incident where we have got to pull back into some crisis and we 
lose the continuity of that experience and expertise. That 
doesn't make much sense. So as we look at, you used the word 
``synergies,'' options that are out there, and I know your 
primary concern is the effective use of infrastructure, but it 
is a related question about, again, forced realignment and 
forced structure to meet modern warfighting needs.
    Ms. Hammack. One of the challenges we are facing with the 
budget, as I said, our manpower is almost a fixed budget, and 
that is 50 percent. You have training, modernization and 
facilities. In order to ensure that our Guard and Reserveare 
well trained, we need to be able to fund training so that they can get 
the number of hours in that they need. And that has had to take a cut, 
as has modernization and facilities in order to meet the budget 
requirements, because it is difficult to take down your manpower at a 
rapid pace and ensure that they are cared for.
    Mr. Fortenberry. Is there talk about combining the Guard 
and Reserve.
    Ms. Hammack. Sir, I think that is for another group.

                        NAVY PRESENCE IN OKINAWA

    Mr. Fortenberry. All right. We will save that for another 
day. One quick other question. Is Okinawa going to be 
completely closed?
    Mr. McGinn. No, sir. There will be a continued presence in 
Okinawa, but it will be less than it is today.
    Mr. Fortenberry. So what percent reduction?
    Mr. McGinn. I will take that for the record if you will 
allow me, and I will give you precise numbers.
    Mr. Fortenberry. You are talking about the troop reduction. 
I was just trying to get a sense of what the longer-term 
projection is here. It is not necessary that you go back and 
do----
    Mr. McGinn. It is not greater than 50 percent.
    Ms. Ferguson. And the Air Force presence remains there.
    Mr. Fortenberry. Thank you.
    Mr. Culberson. I am going to pass myself, and any other 
questions I will submit for the record so my colleagues will 
have a chance to ask questions.
    I know Mr. Bishop had a statement, and I am going to go to 
you.
    Mr. Bishop. I don't have any further questions. I just want 
to make the comment that I can fully appreciate the difficult 
position that you find yourselves in. I know that you have a 
responsibility to do what you do in the best way and the most 
efficient way that you can, and of course, we too have a 
responsibility to try to balance the overall strategic defense 
interests of our country. And so I appreciate your 
forthrightness, and I look forward to having further 
conversations with you. And I appreciate your willingness to 
talk about some of the nuances going forward, so thank you very 
much.
    And I yield back my time.
    Mr. Culberson. Thank you very much, Mr. Bishop.
    And they will probably call votes any minute here, and I am 
going to yield to my good friend, Mr. Farr.
    Mr. Farr. Thank you very much, Mr. Chairman.
    Mr. Culberson, we have a Defense Community Caucus, 
bipartisan caucus. I invite you to join. We will keep you 
informed on all those issues.
    Mr. Culberson. Thank you.
    Mr. Farr. Ms. Hammack, I enjoyed that conversation you had 
with him about the training for the National Guard and 
Reserves, but you have got a build a bridge so they can get to 
the training grounds.
    Mr. Culberson. Don't forget the bridge or the air tower.

                UNOBLIGATED BALANCES IN BRAC FOR CLEANUP

    Mr. Farr. You said something in your testimony that 
intrigued me and that was that you have unobligated balances in 
the BRAC account for cleanup and that aren't reflected in this 
budget, in which you eviscerate the cleanup budget. But when 
you combined the two programs, you had unobligated funds. And a 
source inside the Pentagon tells me that is about $900 million. 
Is that correct?
    Ms. Hammack. For all services, that is the combined 
account. I would say for the Army, we have committed but not 
yet obligated three quarters of the Army's portion of that 
fund. We have, if you have a cleanup program that is a 20-year 
cleanup program, we have allocated funds each year for 20 years 
in order to clean up and complete that project. So as we map 
out these programs, the amount of time it takes to do some of 
this environmental restoration, it is not only money, but it is 
also time and technology.
    Mr. Farr. Well, that is what I want to ask you. If we have 
an account for all Pentagon at $900 million that are 
unobligated, I need a commitment, one, that that money will 
stay obligated then for that purpose, for cleanup. And, two, 
why hasn't itbeen obligated? I don't buy this fact that it is 
lack of technology. I have been here 20 years and doing cleanup, and 
the day I got elected, every special interest was out there with a 
technology from satellite technology to flying a helicopter to doing 
everything you could possibly do if you would just fund their program. 
We have been doing the cleanup. The technology has evolved actually in 
the field, not with somebody in a laboratory.
    Ms. Hammack. Some of the challenges, sir, is how that is 
reported. If it has not been committed on a contract and/or 
spent, it goes into an account that is called unobligated.
    Mr. Farr. I understand that. But the question is, how do we 
have defense contractors out there, the cleanup contractors, 
that indicate that their capacity is what every year, 2 billion 
dollars in capacity, so why haven't we been matching the needs 
with the resources?
    Ms. Hammack. Sir, I would like to take that off line 
because we can show you how we have already committed the 
majority of those funds for cleanup, and so I would like to be 
able to sit down with you and explain that.
    Mr. Conger. Mr. Farr, could I amplify that, too, 
holistically for the department. Two quick points. One, when we 
talk about unobligated balances, I would like to get you a 
coordinated answer with the Comptroller's Office, just so we 
make sure that you have the right numbers, and we will get 
you----
    Mr. Farr. I want to be sure, one, that all that money is 
there that you say is there because it ain't in your budget, 
and I want to make sure that it is obligated for the purposes 
for which it was always intended and that you spend it.
    Mr. Conger. Yes.
    Mr. Culberson. I concur with that, Sam.
    Mr. Conger. Let me give you just a couple quick statistics 
on BRAC cleanup.
    Mr. Farr. I don't want statistics. I don't want it. I just 
want to get this done, and we don't have enough time to do it. 
I want to ask in the 2 seconds or so we have left, let's get 
this done. All right? No more excuses.

       NAVAL POSTGRADUATE SCHOOL AND OTHER INTELLECTUAL CAPACITY

    Mr. McGinn, in the Navy, I represent the Naval Postgraduate 
School, which has probably been BRACed more than any other--
every time they BRAC it, they come out there and say, Wow, we 
can't close this place. It is just too keen. It is just too 
full of incredible intellectual capacity. In your testimony, 
you indicated that you had, that the BRAC process has an 
analytical process that is foolproof and essentially a really 
great smart practice. Have you yet adapted in that process the 
ability to measure intellectual capacity?
    Mr. McGinn. I didn't say it was foolproof. I said it was 
analytical and data-driven but certainly not foolproof. I have 
availed myself of the wonderful academic environment at the 
Navy Postgraduate School for various executive level courses, 
and I would describe it as a true national asset. It is a 
wonderful academic institution, not only for all of our Armed 
Services but for many of our allied countries who----
    Mr. Farr. I totally agree and why anybody in the Department 
of the Navy thinks it ought to be BRACed is beyond my--and they 
always come up that nobody gave them any sort of measurement of 
what you point out, the intellectual capacity of this school. 
And I think that of all the services, if you are going to do 
this and in your institutions of learning, I mean, this is 
unique. You cannot get that degree at MIT with the kind of--you 
can't get it because you couldn't enter MIT without a 
background in engineering where you could be a music major or a 
religion major undergrad and get into the Naval Postgraduate 
School, and your graduates are just as good as the ones that 
come out of the civilian schools. I think the capacity is 
phenomenal there.
    Mr. McGinn. We are in total agreement.
    Mr. Farr. All right.

                       BRAC WITHOUT AUTHORIZATION

    Now, I also hear that there is going to be or you said in 
your testimony that--it wasn't in your testimony, but maybe in 
John Congers' testimony, that if Congress didn't authorize 
anotherBRAC round, you were going to just do it 
administratively under authorities of Section 2687 to significantly 
reduce the activities of various bases. In essence, a BRAC without a 
BRAC. If that happens, what are you going to downsize or close, and 
what would that look like?
    Mr. Conger. So allow me to offer a clarification. I don't 
think my testimony quite said that, but I do think that the 
Secretary said, and I can quote him because I came prepared, 
that if Congress--mindful that Congress has not agreed to our 
BRAC request for the last 2 years, but if Congress continues to 
block these requests while reducing the overall budget, we will 
have to consider every tool at our disposal to reduce 
infrastructure. It was not quite so explicit as you made it. 
Considering every authority does not mean that you have a list 
in your pocket.
    Mr. Farr. And if you don't have the authority under that, 
if it is not done under BRAC to dispose of the properties, and 
that is the concern I have, you may get rid of it, download it, 
as somebody said in their testimony, but not the ability to 
transfer it under BRAC for all the purposes outlined nor clean 
it up. So is this a threat, or what are you telling the 
committee, that have you to have BRAC, or you are going to do 
it your way?
    Mr. Conger. So the budget pressures are pressing us to a 
point where we have to explore all the options to reduce those 
infrastructure carrying costs. As we look at all of those 
options, the preferred option for reducing infrastructure is 
BRAC. I think the Secretary said that very clearly. I think his 
spokesman said that very clearly, and I think the senior 
officials of the Department have said that very clearly. But 
budget pressures are budget pressures. And if there is not a 
BRAC round, then we will be forced to reduce spending some 
other way.
    Mr. Farr. Are you going to come to this committee before 
you launch on that activity?
    Mr. Conger. I think that right now, the Secretary is 
talking about considering those options, and so I think that he 
would be the one that would have to decide what would happen 
next.
    Mr. Farr. Well, I think the chair and the rest of us would 
be very interested if you are going to proceed along those 
lines for all kinds of issues that would have to be answered 
there.
    Last thing, just to make a recommendation, do you really 
emphasize environmental health and safety? And it is important 
you do that, and I appreciate that, but I am just wondering 
because in my district there is a company called the Pacific 
Scientific Energetic Materials Company that is a supplier of 
DoD's ordnance, electronics, laser, pyrotechnic, and vehicle 
resting components, and systems on many of the current and 
legacy systems. The facility recently was recognized within the 
Danaher Corporation for the most improved environmental health 
sand safety program in America. It is a wonderful recognition, 
and I just wondered, do you require that contractors that 
supply your bases use best practices and give them some--or 
what incentives does DoD to use work with defense industry 
bases to encourage supply in use of environmental friendly 
materials and substances to implement your best EHS practices?
    Mr. Conger. Sir, that is an awfully specific question. I 
would like to take that for the record so we can give you a 
good answer.
    [The information follows:]

    The Department strives to ensure effective and efficient compliance 
with all Federal, State, and Local environmental laws and regulations, 
and provides guidance to the DoD Components in meeting those 
requirements as necessary. Part 23.7--Contracting for Environmentally 
Preferable Products and Services of the Federal Acquisition Regulation 
(FAR) requires Federal Agencies and DoD to implement cost-effective 
contracting preference programs promoting the acquisition of 
environmentally preferable products and services. The Department is 
committed to protecting the environment in a cost-effective manner, and 
embraces sustainable acquisition procedures as a critical enabler in 
the performance of our mission.
    The Department makes significant progress on its Safety and 
Occupational Health (SOH) goals by implementing the OSHA Voluntary 
Protection Programs (VPP) at its installations. The Department has used 
VPP to improve safety and reduce workplace injury and illness rates 
across DoD and the Services. Since 2005, DoD has enrolled 420 sites in 
VPP. Of those, 53 have received the VPP STAR Award for excellence. 
These sites experience 69% lower injury incident rates than the 
industry average contractors operating on DoD sites that are pursuing 
VPP are encouraged to partner with the DoD operations to also pursue 
VPP recognition. However, on individual procurement actions, DoD does 
not have the authority to provide incentives to companies for their 
safety and occupational health performance.

    Mr. Farr. Yeah, I like good answers.
    Thank you, Mr. Chairman.
    Mr. Culberson. Thank you, Mr. Farr.
    I want to make sure I recognize Mrs. Roby for any 
additional questions she may have.
    Just a word of wisdom, if you really are, please don't 
think of doing a round of BRAC administratively. I think you 
really would be kicking a hornets' nest unnecessarily.
    So Mrs. Roby.

             FUNDING MADE AVAILABLE TO HELP P-4 INITIATIVE

    Mrs. Roby. Thank you.
    I just have two more quick questions. Secretary Ferguson, 
do you see funding being made available to help communities 
with public-public and public-private partnerships, the P-4 
initiative, for things such as moving military and DOD 
civilians between facilities or consolidation efforts on an 
installation?
    Ms. Ferguson. If I may, I also want to thank Congressman 
Farr and for the great work that the House Defense Communities 
Caucus has done in the enabling legislation, Section 331, that 
is allowing us to do so many of these public-public, public-
private partnerships. And over the last year, we have been able 
to start 16 table top exercises across the United States. We 
are doing 30 more this year, and we have identified 400 
initiatives so far. We have done all of this without any 
additional money, and so we don't have a pot of money to do 
that with. But as requirements come in, we are looking to put 
in the process to see what makes sense, and certainly if 
something saves us a significant amount of money, we will look 
to try to get the resources to execute it.
    Mrs. Roby. Great. Thanks.

                              RCI PARTNERS

    And, Secretary Hammack, during the quality of life hearing, 
the senior enlisted advisors of each service discussed the 
impact of the basic allowance for housing, how it had on the 
out-of-pocket expenses for service members. Do you have any 
concern about the viability of your agreements with RCI 
partners, given the President's fiscal year 2015budget 
proposal, which would reduce that?
    Ms. Hammack. Right now we are working with our RCI partners 
to identify whether they could absorb a reduction in BA and how 
they could or would charge service members for any incremental 
rent costs, so we are evaluating that on a case-by-case basis 
with each project.
    Mrs. Roby. Great.
    That is all I have, Mr. Chairman. I yield back.
    Mr. Culberson. Thank you very much, Mrs. Roby.
    I deeply appreciate your testimony today, your service to 
the country.
    I will submit the remainder of our questions for the record 
because they are going to call a vote any minute on the House 
floor. I deeply, again, appreciate your presence today, your 
testimony and your service.
    And our hearing is adjourned.



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



</pre></body></html>
